<html>
<title> - THE ADMINISTRATION'S FRAMEWORK FOR REBUILDING INFRASTRUCTURE IN AMERICA</title>
<body><pre>[Senate Hearing 115-419]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-419

THE ADMINISTRATION'S FRAMEWORK FOR REBUILDING INFRASTRUCTURE IN AMERICA

=======================================================================

                                 HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 1, 2018

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]  


        Available via the World Wide Web: http://www.govinfo.gov
              
              
                  U.S. GOVERNMENT PUBLISHING OFFICE                    
32-989 PDF                  WASHINGTON : 2019                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0d6a7d624d6e787e796568617d236e626023">[email&#160;protected]</a> 
             
           
              COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED FIFTEENTH CONGRESS
                             SECOND SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware, 
SHELLEY MOORE CAPITO, West Virginia      Ranking Member
JOHN BOOZMAN, Arkansas               BENJAMIN L. CARDIN, Maryland
ROGER WICKER, Mississippi            BERNARD SANDERS, Vermont
DEB FISCHER, Nebraska                SHELDON WHITEHOUSE, Rhode Island
JERRY MORAN, Kansas                  JEFF MERKLEY, Oregon
MIKE ROUNDS, South Dakota            KIRSTEN GILLIBRAND, New York
JONI ERNST, Iowa                     CORY A. BOOKER, New Jersey
DAN SULLIVAN, Alaska                 EDWARD J. MARKEY, Massachusetts
RICHARD SHELBY, Alabama              TAMMY DUCKWORTH, Illinois
                                     CHRIS VAN HOLLEN, Maryland

              Richard M. Russell, Majority Staff Director
               Gabrielle Batkin, Minority Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             MARCH 1, 2018
                           OPENING STATEMENTS

Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     1
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     2

                               WITNESSES

Chao, Hon. Elaine, Secretary, U.S. Department of Transportation..     7
    Prepared statement...........................................     9
    Responses to additional questions from:
        Senator Barrasso.........................................    12
        Senator Carper...........................................    14
    Response to an additional question from:
        Senator Capito...........................................    33
        Senator Fischer..........................................    33
    Responses to additional questions from:
        Senator Markey...........................................    34
        Senator Merkley..........................................    35
    Response to an additional question from Senator Moran........    37
    Responses to additional questions from:
        Senator Van Hollen.......................................    38
        Senator Whitehouse.......................................    42
James, Hon. R. D., Assistant Secretary of the Army for Civil 
  Works..........................................................    46
    Prepared statement...........................................    48
    Responses to additional questions from Senator Carper........    53
    Response to an additional question from:
        Senator Boozman..........................................    55
        Senator Capito...........................................    55
    Responses to additional questions from:
        Senator Inhofe...........................................    55
        Senator Van Hollen.......................................    56
        Senator Whitehouse.......................................    59
        Senator Wicker...........................................    61

                          ADDITIONAL MATERIAL

Trump Upends His Own Infrastructure Plan With PPP Comments to 
  Democrats, Eno Transportation Weekly, September 29, 2017.......   236
Trump endorses 25-cent gas tax hike, lawmakers say, Politico, 
  February 14, 2018..............................................   239
Here's How the U.S. Chamber Would Rebuild and Modernize America's 
  Infrastructure, U.S. Chamber of Commerce, accessed March 15, 
  2018...........................................................   243

 
THE ADMINISTRATION'S FRAMEWORK FOR REBUILDING INFRASTRUCTURE IN AMERICA

                              ----------                              


                        THURSDAY, MARCH 1, 2018

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:06 a.m. in 
room 406, Dirksen Senate Building, Hon. John Barrasso (Chairman 
of the Committee) presiding.
    Present: Senators Barrasso, Inhofe, Capito, Boozman, 
Wicker, Fischer, Moran, Ernst, Sullivan, Carper, Cardin, 
Whitehouse, Merkley, Gillibrand, Booker, Markey, Duckworth, and 
Van Hollen.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Good morning. Today, we will discuss the 
need to modernize our Nation's infrastructure and President 
Trump's plan for rebuilding infrastructure in America.
    This Committee has historically taken the bipartisan lead 
on infrastructure issues in the Senate. I am very pleased that 
Secretary Chao and Assistant Secretary James have come to our 
Committee first to discuss the infrastructure principles shared 
by President Trump on February 12.
    Our infrastructure drives the health, well-being, economy, 
and prosperity of the Nation. We depend upon it to move people 
and goods, to get to our jobs, to protect our homes from floods 
and disasters, and to provide our families with clean water.
    For too long, we have not prioritized the needs of these 
infrastructure systems. Funding has not kept pace with our 
infrastructure; needs and burdensome Federal regulations have 
slowed efforts to spend the money efficiently.
    The time has come to make a significant investment in our 
roads, bridges, ports, and water systems. The Administration's 
plan proposes to spend hundreds of billions of dollars of 
Federal money to generate well over $1 trillion of 
infrastructure impact.
    Part of this can be accomplished by cutting Washington's 
red tape. President Trump's plan prioritizes streamlining. This 
will allow needed projects to start quicker and finish faster 
for lower costs.
    As States, counties, and towns wait to obtain permits from 
Washington, costs for projects rise, and time is wasted. It 
should not take a decade to permit a project that takes only 
months to build. We need to speed up project delivery.
    The President's plan calls for a 2-year or less limit for 
Federal approvals on projects. That is a common sense approach. 
Only in Washington is 2 years considered a quick turnaround. We 
need regulatory streamlining so we can build these projects 
faster, smarter, better, and cheaper. The President's plan also 
makes the infrastructure needs of rural America a priority.
    A significant portion of the Federal money proposed in the 
President's plan is designated specifically for rural States. 
Rural communities need to have an equal seat at the table as we 
address infrastructure needs. What works in Baltimore or 
Chicago may not work for smaller communities like Cody, Casper, 
or Cheyenne, Wyoming. We need an infrastructure plan that 
includes projects for both.
    Better roads and water systems across America help us all. 
Everyone benefits from safer highways and dams in rural 
communities. Any plan should have significant and sustained 
funding levels for rural areas.
    On the Environment and Public Works Committee, we are 
making good bipartisan progress on legislation to address 
America's water infrastructure. We are working side by side on 
water infrastructure legislation that we plan to pass later 
this year. We need to expand that bipartisan cooperation to 
roads and bridges as well.
    America prides itself on its ingenuity and commitment to 
provide infrastructure that meets the needs of its people. I 
believe we can work in a bipartisan way on legislation that 
will make our infrastructure even better. That process begins 
today by hearing more about the President's plan.
    I would like to thank both Secretary Chao and Assistant 
Secretary James for joining us today and for the insights they 
will provide for the Committee.
    I would now like to recognize our Ranking Member, Senator 
Carper, for his remarks.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thanks, Mr. Chairman.
    Good morning. It is great to see our Secretary, and I want 
to be among the first to congratulate our new Assistant 
Secretary with the Army. Thank you for your willingness to 
serve, and we look forward to working with you. It has been a 
joy to work with both of you through the confirmation process.
    Welcome, and we are glad to see you.
    I am disappointed to learn that Administrator Pruitt is 
unable to testify before us today despite EPA's important role 
in the improvement and development of drinking water and 
wastewater infrastructure. Having said that, we are delighted 
that the two of you are here. I thank you for joining us.
    As we consider a potential infrastructure bill, it is 
helpful to hear from you, and we were glad to finally receive 
the Administration's proposal last month. My statement says it 
will largely be up to the Congress. I will be honest with you. 
It is up to you--the two of you--as well. It is up to the 
Administration. It is up to a lot of people. This is a shared 
responsibility.
    A big part of it is on us. We have a pretty good working 
relationship here. Hopefully, that will help us along the way.
    The Chairman and I agree on a lot of things. We disagree on 
one or two. However, we agreed on the need for the Federal 
Government to be a good partner to States when it comes to 
investing in our infrastructure.
    As a former Governor and State Treasurer, I know it is hard 
to ask a State to go from an 80-20 funding formula, for 
example, for roads--80 percent Federal to 20 percent States; it 
is hard to flip that and go from 80-20, where the Federal 
Government plays the major role, to 20-80 where the States are 
expected to put up the 80 percent. It is hard to make up that 
slack.
    Some of us in the Senate met with a bunch of Governors on 
Capitol Hill this week. We had a good conversation about this. 
They are concerned, and you might imagine why. They are not 
anxious to accept that view. I think folks in Wyoming and 
people--Governors and so forth--would all be reluctant to take 
that deal.
    It is one of a number of places where I think the math of 
the Administration's plan does not add up. Last week some 
economists up the road from us in Philadelphia at the 
University of Pennsylvania modeled the Administration's 
proposal, and have been modeling it for a while.
    They found out that at most it would spur an additional $30 
billion in State, local, and private infrastructure spending. 
Think about that--an additional $30 billion in infrastructure 
spending. That is a far cry from what the Administration is 
promising.
    On the campaign trail, I think the President basically is 
saying we are going to put $1 trillion into infrastructure. The 
folks at the University of Pennsylvania at the Wharton School 
of Business are saying, I don't think so.
    I am also concerned about the Administration's proposal to 
give projects incentive awards based almost entirely on the 
percentage of non-Federal money they would raise, regardless of 
project quality and benefits. I think we might want to rethink 
that. I think there is something to be said for more money for 
the leveraging of non-Federal money with the Federal money but 
project quality has to be among the considerations.
    Does this make it safer? Does this reduce pollution? Does 
this make easier for us to get from place to place and that 
kind of thing? Particularly, I am disappointed though by the 
degree to which the Administration is focusing on sweeping 
rollbacks to our Nation's bedrock environmental protections.
    I am committed to delivering projects quickly. I know you 
are, too, but safely guarding environmental projections does 
not always achieve time savings. In fact, I think it rarely 
does. Doing so would potentially put our communities at risk 
and can deprive the residents who would be most affected by 
these projects from making their voices heard.
    There are a number of ways to speed up projects. Putting on 
my old Governor hat, we were able to do those without 
environmental harm, including many this Committee helped enact 
into law and that this Administration is choosing, at least 
thus far, not to implement. For example, we could ensure that 
permitting agencies have enough funding to quickly complete 
reviews. We could enhance coordination tools and implement new 
authorities in 2020 that Congress already passed.
    Unfortunately, the Administration has done the opposite by 
proposing to cut permitting agencies' budgets and slashing 
funding for the Department of Transportation's Infrastructure 
Permitting Improvement Center by two-thirds. That does not 
really speed us up. That does not give us the expedited process 
we all want.
    Congress--thanks to the efforts of this Committee--created 
the Federal Permitting Improvement Steering Council in 2015 to 
coordinate and expedite permitting. That was in 2015. I am told 
that no executive director of the Federal Permitting 
Improvement Steering Council has been appointed. It has been 3 
years.
    Major rulemakings at DOT would implement streamlining 
provisions in the FAST Act and the MAP-21 Act, that I and many 
of our colleagues have supported, has not been finalized. It 
has been 3 years, and in some cases, 5 or 6 years. Frankly, one 
of the best ways to speed up projects is to provide long term 
funding, program certainty, and make grant awards in a timely 
manner.
    Listen to this. Time and again, research has shown that 
inadequate funding is the most common factor delaying water and 
transportation projects. Unfortunately, so far this 
Administration is holding up grants and delaying funding 
decisions. DOT released a funding notice for the INFRA Grant 
Program 8 months ago but still has not awarded the $1.5 billion 
Congress provided for that program. It has been 8 months.
    In the first three-quarters of 2017 EPA awarded only a 
third as much grant funding as the agency did over the same 
period of time in 2016. The Department of Transportation's 2019 
budget proposes cutting funding for all new transit capital 
projects, all new transit capital projects, to cut Amtrak 
funding and to just end the TIGER Program, which I think most 
of us think is a pretty good program.
    For an Administration allegedly interested in efficiency in 
infrastructure--we are, too--it is frustrating to see so many 
critical programs being canceled, mismanaged, or underfunded. 
It is particularly hard to take this Administration's proposal 
to spend $200 billion on infrastructure seriously when that 
proposal is paired with a budget that would cut $240 billion 
from existing infrastructure programs.
    Instead of funding our Nation's aging water infrastructure, 
the President's fiscal year 2019 budget proposal for the Corps 
of Engineers provided by Secretary James is down approximately 
4 percent below the fiscal year 2018 request. For the first 
time in 20 years the President's budget for construction for 
this important entity is below $1 billion.
    In addition to these budget cuts, the Administration 
authorized no new starts in investigations to fund project 
studies and no new starts in construction. That is cutting off 
the pipeline for new Corps of Engineers projects.
    These cuts are disturbing given the Corps' backlog. I 
mentioned this 2 weeks ago, Madam Secretary, in our meeting 
with the President at the White House.
    The Corps' backlog is $96 billion and growing. My 
understanding is we are looking at a budget proposal around $6 
billion. We have a backlog of $96 billion, and we have a budget 
proposal for the Army Corps of $6 billion. It will be a while 
before we get through that backlog, Mr. James.
    Worse, the proposal would shift the burden for financing 
these projects almost entirely onto local stakeholders. Can 
some of them do more? You bet they can. Should they do more? 
You bet they can, but we have to be realistic, too.
    Our country depends on water infrastructure investments in 
part because such infrastructure helps expand our GDP. We need 
to do that. Each Federal dollar spent on civil works programs 
generates $5 in revenue to the U.S. Treasury, and--listen to 
this--$16 in economic benefit.
    The current budget proposal ignores the inherent Federal 
role the Corps plays in stabilizing our economy, the important 
role. These proposals are placed on the Corps and the sectors 
of our economy it supports through what could be a death spiral 
if we are not careful. The Administration appears to ignore 
these clear benefits in developing their budget proposal while 
selectively using a benefit to cost ratio to kill nationally 
significant projects.
    In closing, let me briefly discuss revenues. Secretary 
Chao, when you testified before us last May you told us that 
the Administration's Infrastructure Task Force was looking at 
two issues, permitting and pay-fors. To be honest with you, I 
was surprised when I finally saw the Administration's plan 
devoted 15 pages to permitting while the word pay-for failed to 
appear even once. Maybe I missed it, but I do not think so.
    My colleagues have heard me say more than a few times that 
if things are worth having, they are worth paying for. For 
decades we have relied in this country on a user fee approach 
to pay for much of our infrastructure, especially our 
transportation infrastructure, roads, highways and bridges. In 
years to come we will see an ever growing number of electric 
and fuel cell powered vehicles on our roads that do not use 
gasoline or diesel fuel.
    In anticipation of that growing trend, 3 years ago we 
adopted right here in this Committee legislation that called 
for a multi-state pilot alternative revenue mechanism to fund 
roads in America. We call it Vehicle Miles Traveled or words to 
that effect, the road user charge. Over the next several years 
we should grow the number of States in that pilot and 
eventually run a national pilot of that funding approach.
    Eventually we are going to morph away from taxing gas and 
diesel. We will have all these hydrogen projects on the road 
eventually and all these electric projects on the road. They 
are not going to buy any diesel fuel or gasoline, but we need 
to make sure they are going to be paying their fair share.
    Unfortunately, that proposal is still a few years away. 
Meanwhile, we have a growing shortfall in the Highway Trust 
Fund to address.
    Fortunately, several of us were in a meeting I alluded to 
earlier with the President and our Secretary last month when he 
repeatedly declared his strong support for a 25 cent per gallon 
increase in the Federal gas tax on gasoline and diesel fuel. 
That could become one important additional source of funds to 
help us pay for the improvements we need.
    At first, I thought he was kidding, Madam Secretary, but he 
was not. When I talked to him later, he indicated he had been 
talking about this for weeks.
    Bo Simpson had something like roughly 4 cents increase in 
gas and diesel tax over 4 years, going forward. I presented 
that to the President 2 weeks ago, as you recall, and he said, 
that is not enough, Tom. We need to do more. Twenty-five cents, 
we should do it now.
    He said he would give us air cover, political cover, and I 
thought, God bless you, Mr. President. If he is serious about 
that, if he is serious about something along this line, we can 
do a deal here. We can get this show on the road.
    Finally, let me say I believe there are others as well that 
would find that bipartisan support. With the Administration's 
support and the President's promised leadership, I hope we will 
be able to find agreement for a much needed source of new 
revenues to fund our critical infrastructure needs while we 
also pursue other promising ways to get better results for the 
transportation dollars we spent.
    In those 15 pages I talked about of permitting reform, 
there are some good ideas. There are some that are not, but 
there are some good ideas there, too.
    I understand figuring out how to pay for things is always 
the hard part, but we were not sent here to just attack all the 
easy things. We were sent here to do some tough things, to have 
difficult conversations, and make tough choices to achieve 
better outcomes.
    I heard yesterday from our colleague and friend, John 
Cornyn, with whom I was with in the gym this morning. He told 
us he does not know if Congress will have time to do something 
on infrastructure in this session. I gasped when I heard that, 
shared with me by a reporter the other day.
    I talked with Senator Cornyn about that today. He did not 
think he had said that. That is great. I hope he didn't because 
we have plenty of time, and we ought to have plenty of time to 
do infrastructure and transportation. That is what people sent 
us here to do. They want us to do the hard things.
    If we do, with apologies to Mark Twain, we will amaze our 
friends and confound our enemies. Let us do both.
    Thank you so much. Thank you for letting me go on.
    Senator Barrasso. Thank you, Senator Carper.
    I would like to now welcome our guests: Hon. Elaine Chao, 
Secretary, United States Department of Transportation; and Hon. 
R. D. James, Assistant Secretary of the Army for Civil Works.
    I would like to remind the witnesses that your full written 
testimony will be made a part of the official hearing record. 
We ask that you please keep your statements to 5 minutes so we 
may have time for questions.
    I look forward to hearing your testimony beginning with 
Secretary Chao.
    Madam Secretary.

                STATEMENT OF HON. ELAINE CHAO, 
          SECRETARY, U.S. DEPARTMENT OF TRANSPORTATION

    Ms. Chao. Chairman Barrasso, Ranking Member Carper, and 
members of the Committee, thank you for the opportunity to be 
here today.
    Infrastructure is the backbone of our world class economy. 
It is the most productive, flexible, and dynamic in the world. 
It is a key factor in productivity and economic growth. Yet, 
the challenges are everywhere.
    With respect to surface transportation infrastructure, 
traffic congestion and delays cost drivers nearly $160 billion 
annually. About one-quarter of our Nation's bridges are 
structurally deficient or in need of improvement. More than 20 
percent of our Nation's roads are in poor condition, and the 
transportation needs of rural America, which account for a 
disproportionately high percentage of our Nation's highway 
fatalities, have been ignored for too long.
    That is why 12 government agencies have been supporting the 
President on a comprehensive Infrastructure Initiative, which 
the President announced as a priority in the 2018 State of the 
Union address. Transportation is just one component. The 
Initiative includes--but is not limited to--drinking and 
wastewater, energy, broadband, and veterans' hospitals as well. 
It is designed to change how infrastructure is designed, built, 
financed, and maintained in communities across the country.
    The goal of the President's proposal is to stimulate at 
least $1.5 trillion in infrastructure investment, which 
includes a minimum of $200 billion in direct Federal funding. 
The guiding principles are to: one, use Federal dollars as seed 
money to incentivize infrastructure investment; two, provide 
for the needs of rural America; three, streamline permitting to 
speed up project delivery; and four, reduce unnecessary and 
overly burdensome regulations.
    In addition, a key element of the proposal is to empower 
decisionmaking at the State and local level. They know best the 
infrastructure needs of their communities.
    Half of the new infrastructure funds would go toward 
incentivizing new State and local investments in 
infrastructure. A quarter of the Federal funds will be 
dedicated to addressing rural infrastructure needs, as 
prioritized by State and local leaders. As a former Secretary 
of Labor, I am pleased to note this plan also has a work force 
component to help workers access the skills needed to build 
these new projects.
    The department is also implementing the President's One 
Federal Decision mandate announced in August 2017 to help speed 
up the delivery of new infrastructure and reduce costs. In 
fact, the Department is working on a new process to handle the 
permitting of complicated, multi-agency projects to meet the 
President's new expedited time line.
    In addition to permitting reform, the department is doing 
its part to help grow the economy and create jobs through 
regulatory reform. Costs associated with new DOT regulations 
decreased by $312 million in 2017, and the department is on 
track to decrease these costs by at least $500 million in 2018.
    By incentivizing new investment in infrastructure, 
eliminating overly burdensome regulations, providing support 
for rural America, and streamlining the permitting process, the 
department is helping to improve our quality of life and build 
a brighter future for all Americans. This Administration looks 
forward to working with all of you on these very important 
issues affecting our country's economy, vitality, productivity, 
and also quality of life.
    Thank you again for inviting me, and I will be happy to 
answer any questions you may have.
    [The prepared statement of Ms. Chao follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Thank you so very much for your 
testimony.
    Mr. James, please proceed.

                STATEMENT OF HON. R. D. JAMES, 
        ASSISTANT SECRETARY OF THE ARMY FOR CIVIL WORKS

    Mr. James. Good morning, Mr. Chairman, members of the 
Committee, and Ranking Member Carper.
    I am honored to testify before you today on the 
Administration's recently released infrastructure plan and the 
water resources needs and challenges of our Nation. I look 
forward to working with you to advance the delivery of our 
Nation's water resources infrastructure through innovative 
approaches and streamlined processes.
    The Army has played a significant role in the development 
of the Nation's water resources in the past. The Army maintains 
our Nation's coastal navigation channels, inland waterways, 
dams, navigation locks, flood control levees, and hydropower 
plants.
    These projects help prevent flooding in our river valleys 
and along our coasts and facilitate the movement of 
approximately 2 billion tons of waterborne commerce. They also 
provide 24 percent of the Nation's hydropower.
    Much of our Nation's infrastructure is aging, as you know, 
and requires significant amounts of resources to maintain. The 
traditional approach to constructing and maintaining these 
projects is not sustainable.
    The Administration's infrastructure legislative principles 
released on February 12, 2018, provide a common sense approach 
to addressing these issues. The legislative principles directly 
applicable to the Civil Works mission fall within six general 
areas.
    The first is water resource infrastructure. The 
Administration's principles would remove barriers and provide 
new authorities to expedite the delivery of infrastructure 
projects through a variety of mechanisms focused on revenue 
generation, streamlining project delivery, and innovative 
acquisition approaches.
    The second area is inland waterways. For this area, the 
combination of new and existing revenue streams combined with 
non-Federal partnerships would enable greater efficiencies and 
innovations for our Nation's inland waterways.
    The third area is associated with incentives in the form of 
grants to non-Federal entities. These are intended to encourage 
innovation, accelerate project delivery, and increase State, 
local, and private participation.
    The fourth area pertains to the Water Infrastructure 
Finance and Innovation Act. This Act provides for incentives in 
the form of low cost loans, which are intended to encourage 
innovation, accelerate project delivery, and increase State, 
local, and private participation.
    The fifth area involves environmental reviews and 
permitting. In addition to broad environmental and permitting 
reforms, the principles would further streamline the Civil 
Works Section 404, Section 10 of the Rivers and Harbors Act, 
and Section 408 programs to timely support decisions while 
maintaining the environmental protection provided by the law.
    Finally, the last area applicable to Civil Works' 
responsibility is divestiture. The infrastructure legislative 
principles authorize Federal divestiture of assets that would 
be better managed by State, local, or private entities. The 
Administration's infrastructure proposal is an opportunity for 
the Army to apply new financing approaches and streamline the 
processes to meet current and future needs of the Nation.
    I recognize the importance of streamlining environmental 
reviews with the goal of shortening timelines to an average of 
2 years while still protecting the environment. In particular, 
I am looking to eliminate redundant and unnecessary reviews, 
concurrencies, and approvals.
    In addition to the Administration's legislative proposal, I 
will look internally at the Civil Works organization's 
authorities, policies, regulations, and procedures to identify 
opportunities for increased efficiency and effectiveness. I 
want to stop focusing on the process and focus on the results.
    Simply put, the Army must ensure that we put the Federal 
funds we are entrusted with into the ground effectively and 
efficiently. To me, let's move the dirt is the goal.
    In closing, the time has come for us to focus on outcomes 
as we rebuild America. The way we use our water resources 
significantly impacts the economic advantage afforded to us by 
our river systems. It will determine if we protect and restore 
the capital assets afforded healthy ecosystems, and it will 
determine how we protect life and property from the coast to 
coast threat of flooding.
    I look forward to working with this Committee in the future 
to improve the ways that we can invest in our water resources.
    Thank you, Mr. Chairman and members of the Committee. This 
concludes my statement. I look forward to taking any of your 
questions.
    [The prepared statement of Mr. James follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Thank you very much to both of you. We 
appreciate you being here today.
    Many of the members of the Committee are here looking 
forward to asking questions. Before we do that, we have two 
pieces of housekeeping.
    One is, in order to assist Chairman McCain in his absence, 
Senator Inhofe is going to be chairing the Senate Armed 
Services Committee hearing today. I ask permission of my 
Republican counterparts that as he arrives, he be allowed to be 
recognized for questions at that time.
    The second is that we have a series of three roll call 
votes beginning at 11:45 a.m. It is my intention to complete 
our hearing by noon in order for all of us to fully participate 
in the voting on the floor.
    With that, Madam Secretary, thank you again for being here.
    Earlier this year Congress passed a budget that designated 
an extra $10 billion a year for infrastructure. As the head of 
the governmental department that spends the most Federal 
dollars on infrastructure, would you agree, Madam Secretary, 
that an extra $10 billion per year would make a substantial 
difference to States, including Wyoming, Delaware, and others, 
and is a good start in our efforts?
    Ms. Chao. There is approximately $4 trillion in 
infrastructure needs in this country, so every dollar counts. 
Thank you.
    Senator Barrasso. I am showing you a chart, Madam 
Secretary. As you can see from the chart, on average, highway 
projects take the longest time to complete the environmental 
impact statements, longer than rail, longer than public 
transit, longer than electricity transmission. It is the 
highway projects, on average, that run 6 and a half years.
    Do you agree that streamlining is critical in terms of 
speeding up the needed investment in our Nation's highways?
    Ms. Chao. Absolutely. There are many private pension funds 
that are very interested in investing in public infrastructure. 
Yet, in a number of States, the private sector is disallowed 
from participating in the financing of public infrastructure. 
That is one issue.
    Two, while I see a great deal of enthusiasm from the 
private sector, pension funds, and others to participate, one 
of the hurdles they face is the lack of ready projects to be 
financed. If the permitting process can be speeded up and also 
from a common sense, less bureaucratic way of doing things, 
they can be streamlined, and it will actually make more 
projects available for the private sector to invest.
    Senator Barrasso. Mr. James, the Committee has already held 
two hearings this year related to enacting the Water Resources 
Development Act legislation. In light of those hearings, it is 
clear that the Corps needs to have the right tools and 
flexibilities to carry out water infrastructure projects.
    If implemented, how would the Administration's 
infrastructure framework ensure the Corps has the proper means 
at its disposal for important water infrastructure projects? I 
can think of one in Wyoming, the Jackson Hole ecosystem 
restoration. How do we make sure those are delivered 
efficiently, effectively, and at the lowest cost for the 
American taxpayer?
    Mr. James. Mr. Chairman, you just discussed with the 
Secretary the situation I feel has held up our way of doing 
business in the Corps for a long time. That is the fact of 
multiple agencies overseeing the environmental impact 
statements as we go through developing those.
    Under President Trump's plan, there would be one agency in 
charge of that, one decision, one agency, and the agencies will 
work together with the understanding that they do not have 6 
years to complete an environmental impact statement.
    As far as the other things the Corps does, part of it is 
planning, designing, engineering, and finally getting to 
contracts and construction. We are trying. The Corps has 
already internally made great steps and strides toward 
improving their process.
    I am working with General Semonite and his key staff. We 
will further dig into that and try our best to address it so 
that those processes do not take as long, and what money we are 
afforded can then be put in the ground rather than in the 
process.
    Senator Barrasso. We appreciate General Semonite being 
here.
    You have testified a number of times before the Committee. 
Thank you for being here with us today to join in the 
discussion.
    Mr. James, current authorities allow the Corps to receive 
funding from other entities such as natural gas companies and 
railroads to augment existing regulatory resources. It is done 
so that permit evaluations can be expedited under Section 404 
of the Clean Water Act and Section 10 of the Rivers and Harbors 
Act.
    What benefits or drawbacks do you foresee if this authority 
were to be expanded to allow the Corps to receive funding from 
any non-Federal entity to augment existing regulatory 
resources?
    Mr. James. Sir, I would like for you to give me the 
opportunity to let my staff get back with you immediately on 
that. I have thoughts, but I do not want to give you the wrong 
information on that, if you will, sir.
    Senator Barrasso. I would also ask that they look into if 
there are any additional considerations that would help the 
Committee understand what additional authorities would help the 
Corps further expedite the processing of evaluating the 
regulatory permits.
    Mr. James. Absolutely. We will work on that and get back to 
you. I appreciate that.
    Senator Barrasso. Thank you very much.
    Senator Carper.
    Senator Carper. Secretary, you have only been on the job 
for a short while, and you have shown great wisdom in your 
response to that last question. When you do not know the 
answer, say so. Tell us you will get back to us, and make sure 
you do. That would be great.
    Secretary Chao, I mentioned in my opening statement that 
the folks at the University of Pennsylvania's Wharton School of 
Business--including an economist who I think was a former Bush 
Treasury official--evaluated the Administration's claim that 
$200 billion in spending will somehow produce $1.5 trillion 
overall.
    The folks at the Wharton School of Business stated that the 
Administration is off by 98 percent. In other words, for every 
$100 it has claimed, the amount of money being generated, funds 
being generated from this proposed spending, 98 percent of that 
will never materialize. Other experts, including the Heritage 
Foundation, of all people, have looked at Wharton's report and 
say it is spot on, which kind of surprised me.
    Let me give you a chance to respond to these experts and 
briefly walk us through how we take $200 billion and turn it in 
to $1.5 trillion even though States tell us they are cash 
strapped, and we know the vast majority of projects to repair 
or replace infrastructure will not attract private investment. 
Explain how that works.
    Ms. Chao. Obviously, we disagree with both the Heritage 
Foundation and the Wharton Institute. It actually takes people 
with real life business experience to know how it works.
    We see it in the TIFIA loans, with the Build America 
Bureau, and also with the RRIF loans. We give $1 that leverages 
$14, basically in credit, and of the $14, there is 40 times 
leveraging overall investment spending. We see it every day in 
the Build America Bureau.
    Senator Carper. I am not from Missouri, but on this one, 
you are going to have to show me.
    Madam Secretary, the department elite has a key role in 
negotiating a win-win situation outcome on fuel economy and 
greenhouse gas tailpipe standards with California. I have been 
concerned that no real negotiations with California have 
occurred to date.
    I am also concerned about press reports that the 
Administration may choose to weaken the standards far more than 
any automaker has asked for. I have asked them all. I have 
asked Detroit, I have asked 10 of them, what do you need in 
terms of standards. They said not as much as the Administration 
apparently thinks we are asking for. We are not.
    We need a win-win situation here. This is ripe for a win-
win situation. I want to ask your commitment to do two things. 
I do not think they are too difficult things to do.
    As the process moves forward, let me ask you to commit to 
do two things. One, I have heard that the Transportation 
Department and EPA staffs are not working together as well as 
they can and should in this regard.
    I just want to ask if you will direct your political and 
career staff to answer all of EPA's questions about the 
Transportation Department's model and analysis quickly and 
completely. That is my ask.
    Ms. Chao. I would be more than glad to answer 
transportation questions. As for what happens at the EPA, I 
will talk with the Administrator, but it is up to him.
    Senator Carper. I want to make clear I am asking you to 
direct your political and career staff to answer all EPA's 
questions about the Transportation Department's model quickly 
and completely. That is what I am asking.
    Ms. Chao. I will do what I can, but I do not understand 
that question. If it is another jurisdiction, I cannot make 
them answer that.
    Senator Carper. We are asking your department to answer the 
questions asked by another part of the Administration, EPA.
    Ms. Chao. Right, and I cannot do that. They have to answer 
their own questions.
    Let me also disabuse you of the idea that we are not 
working together on this, because we have been. In fact, we 
have held almost daily meetings at the White House with EPA and 
the Department of Transportation on this issue, and California.
    In fact, I have had the Acting NHTSA Administrator, Heidi 
King, fly out to California several times in an effort on our 
part to try to come together and understand and work together 
with California. From our point of view, I feel quite confident 
that we have really tried.
    Senator Carper. Madam Secretary, I am going to ask you to 
hold it right there, because what I have repeatedly heard from 
EPA, from within the Department of Transportation, and from the 
folks in California, the CRRV, that there are no active 
negotiations underway, that the give and take you are telling 
us about is not occurring. Let us have an off-line conversation 
about that.
    What I have heard is deeply concerning, and I want to make 
sure you are hearing the same thing I am hearing.
    Ms. Chao. If that is happening, I want to know about it, so 
thank you for bringing that up.
    Senator Carper. We are talking about permitting reform. We 
have done a lot. We need to do more. My hope is we will have an 
oversight hearing that actually looks back to 2012 legislation, 
what we asked for and what has been done and one that looks at 
2015 legislation, what has been asked for and what has been 
done.
    I will ask three questions for the record. Why has the 
Administration failed to appoint an executive director to the 
Federal Permitting Improvement Steering Council? You have had 
several years to do that.
    Why has the department not finalized all the MAP-21 and 
FAST Act streamlining rules? In some cases, you have had 3 
years. In other cases, you have had 5 or 6 years to do that.
    Why has the Administration proposed to cut the budget for 
permitting agencies, including the DOT's Infrastructure and 
Permitting Improvement Center?
    Those are legitimate questions. We do not have time to 
respond to those today, but those are good questions and need 
to be answered.
    Thank you very much.
    Senator Barrasso. Thank you, Senator Carper.
    I would like to submit for the record about TIFIA and RFIA 
because the history of these programs has successfully 
demonstrated that Federal funding can be significantly 
leveraged. We have testimony from Jennifer Aument to this 
Committee in July 2017.
    Without objection, that will be submitted.
    [The referenced information was not received at time of 
print.]
    Senator Carper. May I make a similar unanimous consent 
request to submit the University of Pennsylvania Wharton School 
analysis that indicates only 2 percent of the moneys in fact 
would be generated?
    Ms. Chao. I would be more than glad to provide comments to 
that as well.
    Thank you.
    Senator Barrasso. Without objection.
    [The referenced information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    I appreciate you coming to me. I am chairing the Armed 
Services Committee hearing at this time, but what we are doing 
here is so significant. I am very excited and positive about 
it.
    Just to clarify, we have been in contact with our 
committees, two committees, Commerce and Environment and Public 
Works, the White House, and the Administration many, many 
times. We got a good running start, and good things are 
happening.
    I was encouraged by the President's proposal. I think we 
can all come together, and there is no better evidence of that 
than a joint Wall Street Journal article written by Senator 
Whitehouse and me just last week.
    I ask unanimous consent that it be made a part of the 
record at this point.
    Senator Barrasso. Without objection.
    [The referenced information follows:]
    [GRAPHIC] [TIFF OMITTED] T2989.019
    
    [GRAPHIC] [TIFF OMITTED] T2989.020
    
    Senator Inhofe. I am very serious when I say this, Madam 
Secretary, because Senator Whitehouse is one of the more 
progressive Democrats. I am a conservative Republican, and we 
agree on this stuff.
    There is an old document nobody reads anymore called the 
Constitution that tells us what we are supposed to be doing 
here, defending America, and they called it post roads back 
then, so we have every intention of doing that.
    The Harvard Harris Polls show that 84 percent of Americans 
responded that we need to invest more in our infrastructure, 
and then they talk about different methods of paying for all 
this.
    I do think when we look at this we need to consider the 
additional revenue that will be coming in as a result of the 
increase in economic activity. It works out for each 1 percent 
increase in economic activity; it develops about $3 trillion 
over 10 years of additional revenue.
    This worked back in the middle 1960s with Kennedy and 
certainly worked with Reagan. That needs to be considered.
    Secretary Chao, I will be looking forward to working with 
you. Our Oklahoma Department of Transportation has shared with 
me that for each year of delay of a project, 3 percent of cost 
actually goes up. Timing is important.
    When funding is scarce and hard fought to earn, it can 
really limit what our States and local entities can accomplish. 
I appreciate the Administration's recognition of this fact with 
their focus on project delivery reform.
    We did a great job in the FAST Act with a lot of the 
project delivery reforms. It was huge, so we got a lot more 
miles done than we would have otherwise. At that time, I 
chaired this Committee, and Senator Boxer was the Ranking 
Member. We did accomplish some things.
    Can project delivery be both timely and environmentally 
sound? I would ask you to respond to that, if you would.
    Ms. Chao. Of course. Out of the 30 different regulations 
required by the FAST Act, everything has been done except for 
two. They should be coming out by June of this year.
    On the other issues about one Federal decision announced 
last August 2017, this actually addresses more than the FAST 
Act. It addresses multi-departmental, multi-agency 
coordination.
    We are finding as we implement what the FAST Act has asked, 
there are larger problems about permitting that spans the 
entire Government, which is why we need to tackle the rest of 
the permitting processes in the other departments on a multi-
agency basis.
    Senator Inhofe. Your first response, people should pay 
attention to that. We have actually done that. It has been done 
now, so we can do it again.
    Secretary James, I do have a question I want to ask you 
concerning the Corps of Engineers. However, it is a long one, 
so I am going to submit that for the record if that is all 
right.
    Mr. Chairman, thank you for giving me this priority.
    Senator Barrasso. Thank you, Senator Inhofe.
    Senator Merkley.
    Senator Merkley. Thank you, Mr. Chairman.
    I wanted to start with Mr. James by asking you about the 
tribal villages along the Columbia River that we had a chance 
to discuss before. These are the villages that were flooded by 
building dams on the Columbia River. We rebuilt the city that 
served the Caucasian population but did not fulfill our 
commitment to the Native American tribes to rebuild their 
villages.
    I think you indicated some interest and support for this. I 
just wanted to check in and see if you are prepared to help 
champion getting this long overdue commitment done.
    Mr. James. Yes, sir. I do think that is the right thing for 
this country to do. The tribes that were moved out of their 
homeland areas have been promised housing in other places. We 
should do that as a Nation. There is no question about that. I 
look forward to working with you in the future and will help 
with your efforts in doing that.
    Senator Merkley. Thank you very much. I sure appreciate 
that.
    Secretary Chao, I wanted to ask you about the basic 
question of Buy America and Buy American referring to U.S. 
sourced steel and inputs for what we build as a U.S. Government 
and Buy America, U.S. sourced steel and other products for 
projects funded by American grants, U.S. Government grants.
    In his inaugural address, President Trump said, ``We will 
follow two simple rules, buy American and hire American.'' Is 
the President still standing by this pledge for buy American?
    Ms. Chao. Absolutely, at the Department of Transportation.
    Senator Merkley. Thank you, because here is the thing. Buy 
America is not mentioned at all in your infrastructure 
proposal. It is not mentioned in the context of the 
transportation and water projects; it is not mentioned as a 
requirement in the infrastructure grants; it is not mentioned 
in the issue of relocation of utilities; and it is not 
mentioned in the requirements for the airport improvement 
program, so on and so forth.
    Can you pledge to insert Buy America and Buy American into 
these proposals so that we will buy American made steel?
    Ms. Chao. There is an executive order outstanding on 
January 20, so I think it is quite clear that is governed by a 
different authority. But you make a good point, and I will 
certainly consult with the White House on that.
    Senator Merkley. Thank you. Actually, unless it is in the 
legislation issuing these grants, it will not actually be 
compelling. I would like to work with you to achieve that 
vision and that objective.
    Ms. Chao. If I may add one other thing, we are actually 
applying the Buy America to all these grants, so thank you.
    Senator Merkley. Thank you. I appreciate that a great deal.
    The second thing I wanted to explore is the challenge of 
whether we are simply moving chairs around on the deck of our 
infrastructure Titanic. In that regard, I have a chart I would 
like to show you.
    This chart shows that the President's budget is taking a 
total of $280 billion out of infrastructure: out of the TIGER 
grants, $5 billion; out of the Highway Trust Fund, CBO 
estimates $164 billion; out of the new starts, almost $20 
billion; out of Amtrak, $7.6 billion; Army Corps of Engineers, 
$14 billion; CDBG, $30 billion; home grants, incredibly 
important to so many areas for housing, $9.5 billion; public 
housing capital, $19 billion; the Economic Development 
Administration, so important in rural areas, $2.5 billion; 
aviation, $3.6 billion; and rural water, $5.1 billion.
    These total $280 billion. If we look at what is going on 
here, we are cutting $280 billion for infrastructure here and 
adding $200 billion over here. That is a net loss on 
infrastructure. How does that fulfill the vision of an 
aggressive infrastructure program?
    Ms. Chao. I think there is a disagreement about the purpose 
and use of Federal funding, which is obviously a discussion 
point for us and why we are all here.
    The numbers you mentioned are compared to the 2018 fiscal 
year. If you look at 2017, it is actually not a cut; 2018 went 
up, and therefore, that is how you consider it a cut. 
Nevertheless, the FAST Act increases the mandatory portion by 
more than 4 percent. Overall, the DOT budget is pretty much the 
same in 2019 as well. The $200 billion that has been moved has 
been inserted into the infrastructure proposal which is in 
another part of the overall Federal budget.
    Senator Merkley. I thank you for your answer. I am not 
persuaded by it. It appears to me we are not making the type of 
commitment we are pretending to make. I will close with this 
because my time is up. How quickly it passes.
    Folks back home are saying--let me get this straight. We 
take our resources and build something. The Federal Government 
puts in a tiny amount of money, and then they take credit for 
it. This is the 80-20 versus the 20-80 split we heard 
previously.
    They are saying, we simply do not have the 80 percent, so 
we will not build under this structure. Quite frankly, they 
consider it a bit of a farce to put in a tiny bit of money and 
then claim credit for the entire thing. There is a lot of 
concern that this is not really going to fly in terms of 
motivating or enabling infrastructure that we desperately need.
    Senator Barrasso. Thank you, Senator Merkley.
    Senator Moran.
    Senator Moran. Mr. Chairman, thank you very much.
    Madam Secretary and Mr. James, thank you for being here.
    I have just a couple of comments before I ask questions of 
the Under Secretary.
    For you at the Department of Transportation, I want to 
raise the topic of hours of service, a topic that never seems 
to end, at least in my life as a representative of a rural 
State in particular. For you Madam Secretary, I want to raise 
the mandate on the electronic logging device.
    There is a 90-day extension that expires March 18, a few 
days from now. I need your help with the Federal Motor Carrier 
Safety Administration working with the livestock industry to 
delay the implementation of ELD.
    This really is an hours of service issue, and how do you 
haul livestock, live animals, and comply with the mandate, the 
hours of service law. From a humane and common sense point of 
view, what we have to date does not work, but the rubber, so to 
speak, is hitting the road because of the ELD mandate changing 
the method by which truckers record their hours of service.
    There is a petition pending, a request for a delay. March 
18 is around the corner. That is a 5-year delay request, but 
this issue needs more attention than just this issue of 
electronic logs. I thank you for your nodding yes and hope that 
is a suggestion that you will help us try to find a solution in 
the matter of just a few days.
    Ms. Chao. I am very concerned about this issue. I have 
heard a lot on this issue from various rural Senators and 
Congressmen. Exemptions or waivers are one way, but we are also 
tied legislatively, so we hope to work with you on addressing 
that on a larger basis.
    Senator Moran. We are working legislatively in the 
appropriations process, potentially in the omnibus bill, but 
March 18 is a very short period of time. They have allowed a 
90-day delay, which gets us to March 18, which we appreciate, 
but it does not go far enough.
    Second, Madam Secretary, in your confirmation hearing, I 
submitted to you a question about the commercialization of rest 
areas. You indicated in your written response that you would 
adhere to the existing law.
    Congress has voted on the issue of commercializing rest 
areas, and overwhelmingly--I think the vote was 86-20 that 
voted against this commercialization.
    I do not have a specific question, but I would just 
highlight for you your answer to me. The present plan in front 
of us from the Administration does include commercialization 
proposals.
    Again, as a rural legislator interested in those local 
businesses and franchisees, we have a concern about that 
commercialization and the competition that could come in an 
unfair way.
    Ms. Chao. I hear you.
    Senator Moran. Thank you, ma'am.
    To the issue of water resources, in 1 minute, 58 seconds, I 
want to raise two topics with you. One is the way that lack of 
resources is a common denominator, a complaint that you would 
have and that I would have in regard to our ability to do water 
resource projects.
    I wondered about the process by which the Army Corps of 
Engineers has now gone to a three phase process in what used to 
be a two phase process. We now have the feasibility phase, the 
PED phase, and the construction phase.
    Mr. James, my question is has there been any consideration 
of reducing those three phases to two? Because once we get 
through the first two phases, which take a period of time, then 
there is no money for the construction phase. Can we shorten 
the first two phases into one in the hope that those projects 
are not lingering as long as they do today waiting for the 
funding?
    Mr. James. Those are internal negotiations going on inside 
the Corps of Engineers. To answer your question, those are 
three completely different things. We are looking at 
streamlining. We know we want to quit wasting a penny here if 
we can and add the pennies and put a dollar to ground. That is 
what we want to do. I have the commitment from General 
Semonite, and we are going to do that.
    However, the three phases you talk about I think we will 
streamline each one of them, but I am not sure we could do away 
with both of those, I mean one of those, because they even have 
different types of engineers and planners working on them.
    Senator Moran. I thank you for your answer. If you will 
follow up with me, that will be fine.
    Mr. James. I will do that, sir.
    Senator Moran. Thank you very much.
    My final point to you is I have noticed a particular 
problem we have in Kansas related to the Corps. I will not ask 
a question because I am out of time. But I would highlight for 
you, we have ongoing dam work that the surface of the dam is a 
State highway. That requires a detour over the dam for the next 
several years while construction is ongoing.
    There are no resources to provide the detour route around 
the dam construction the Army Corps of Engineers is involved 
in. We need the Army Corps of Engineers to work more closely 
with State and local governments in advance of making the 
decision so that a solution can be found for alternative 
routes.
    Mr. James. That is very reasonable.
    Senator Moran. Thank you.
    Senator Barrasso. Thank you, Senator Moran.
    Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman.
    I thank both of our witnesses.
    Secretary James, I want to talk about our high priorities 
for Maryland and our region in regard to environmental 
restoration and sites for dredged material. I asked you a 
question specifically about Poplar Island, which is an ongoing 
project in the President's budget. I first want to acknowledge 
General Semonite's letter that I received this past week in 
which he has completed the Chief's report on Mid Bay, which is 
the next staging area to continue the program.
    I appreciate General Semonite's comment, ``I consider this 
a very important project for our ecosystem and navigation 
system.'' That is what Poplar Island was authorized for, the 
first of its kind that would be a win-win situation for our 
navigation and for our environment. Congress specifically 
authorized it for that purpose and has funded it.
    I understand in the President's budget submission, he 
reclassifies the project to compete solely on navigation rather 
than on the dual purpose and provides $21 million of funding 
which is an inadequate amount of money. We hope to address that 
during the appropriations process.
    I am not sure legally what basis the President has in the 
budget submission to change the authorization by Congress. I 
would just ask your cooperation to please check the legality of 
that but more importantly, to work with us because the bottom 
line is we want to be able to continue this policy which has 
been extremely successful for navigation and environment where 
we have the local community strongly supporting the site 
locations, and we have been able to maintain our channels.
    My request is if you would personally take a look at this, 
work with us, and work with the regional delegation so that we 
can make sure Poplar Island can receive what it needs for its 
last diking and be able to complete its mission. We then hope 
to transition to Mid Bay.
    Mr. James. How much time do I have?
    Senator Cardin. If you are going to tell me, I agree with 
you completely, you can take as much time as you want.
    Mr. James. I have been briefed on this area, the dredging 
and the Poplar Island situation. I could not answer that if you 
posed it as a question right now for sure. My staff will get 
back with you on the specifics, and I will be happy to work 
with you as we go forward.
    Senator Cardin. I appreciate that.
    Mr. James. I have an overall theme and feeling on dredging 
and dredge disposal in our country. The fact of it is that a 
lot of our dredged material placement is turned down and not 
allowed because of ``environmental objections.'' It actually 
prevents dredging, due to the increase in cost, from taking 
place. It is not just up the north coast; it is all around. As 
we move forward, as I can get out of the cradle, I intend to 
talk to the other permitting agencies about that and see if we 
can agree on a way forward.
    Senator Cardin. I appreciate that.
    I will return the question; how much time do you have? If 
you do, I would invite you to join me, Senator Van Hollen, and 
others to visit Poplar Island. I think seeing it would be 
extremely important in understanding what has been achieved by 
keeping our channels open but also the restoration of a major 
part of the Chesapeake Bay, a former habitable island that now 
is a plus for our environment.
    I welcome working with you on that issue but recognize that 
Congress specifically did authorize that project.
    Mr. James. Thank you.
    Senator Cardin. The second point I want to make, Mr. 
Chairman, in the remaining seconds, is to Secretary Chao.
    I am not going to go through all the revenue issues. I do 
not understand how we are going to get to $1.5 trillion. I do 
not understand the $200 billion because I think it is recycled 
money, so we are not really putting up any more.
    I say that recognizing that we have challenges. In the 
Washington region, I have a special interest. I commute back 
and forth from Baltimore every day. It is a challenge. We need 
better transit; we need better commuter rail; we need better 
ideas on rapid rail.
    Obviously, we have to work with the community to make sure 
that what we do is consistent with what the community wants, 
but we need to have the resources in order to move those 
forward. These are substantial investments that under the 
current funding laws are going to be a challenge to get. We 
need additional funding in order to achieve that.
    The last point I really want to put on the table is that we 
have a tremendous backlog in maintenance. Before we build a lot 
of new roads and bridges, are we sure that our current roads or 
bridges will not collapse? Do we have a commitment to maintain 
our infrastructure as part of this initiative?
    Ms. Chao. The overall funding for roads and bridges in 
America is assumed 84 percent by the States and local areas. 
Actually, the Federal funding is only 14 percent. Putting that 
aside, I think maintenance is very important. We want to work 
with you on that.
    Senator Cardin. Thank you, Mr. Chairman.
    Senator Barrasso. Thank you very much, Senator Cardin.
    Senator Ernst.
    Senator Ernst. Thank you, Mr. Chair.
    I want to thank Senator Moran for bringing up the EDL 
mandate issue. I want to go a little further and ask Madam 
Secretary if there is a specific date on which the DOT will be 
getting back to our livestock haulers on that.
    Again, the time period is running out. It is just about 2 
weeks away. We do need to have an answer there. Do you have a 
date that we can expect the DOT to respond?
    Ms. Chao. I think the larger problem is the hours of 
service. If we do anything, it will be another extension.
    Senator Ernst. OK.
    Ms. Chao. Another waiver.
    Senator Ernst. Waiver.
    Ms. Chao. That is not a permanent solution, so we need to 
have a legislative fix of some sort.
    Senator Ernst. I do agree. We can expect that waiver to 
occur before the mandate runs out?
    Ms. Chao. I am sympathetic.
    Senator Ernst. OK. We hope to see that.
    Ms. Chao. A decision will have to come up before March 18.
    Senator Ernst. Thank you, Secretary. I did hear from a 
hauler yesterday that they are very, very concerned about this. 
Thank you for that.
    I would like to also visit with you, Secretary, about rural 
broadband. I was really glad to see that the Administration 
recognizes the importance of rural broadband deployment and 
making it eligible for funding in the framework of a rural 
infrastructure program.
    The Federal broadband loan and grant programs, such as the 
FCC's Universal Service Fund High Cost Program and the USDA's 
Rural Utilities Service, are already in place. I am wondering, 
why then did the Administration decide not to do direct funding 
through the existing programs?
    Not all States are going to have the level of expertise or 
programs in place to efficiently build out their broadband. I 
do understand the significance of doing block grants to the 
States, but why are we not utilizing existing programs? Do you 
maybe have some thoughts there?
    Ms. Chao. I will look into that. I have not seen it, but 
you brought it up. Basically, 25 percent of the funds will go 
to rural America, and then it is going to be up to the Governor 
and the States as to how they want to spend that. Broadband 
obviously is one area we would encourage them to pay some 
attention to.
    Senator Ernst. Absolutely. Broadband is very, very 
important to rural areas. I do understand that we will have a 
quarter of the dollars allocated for the infrastructure package 
going to those rural areas.
    However, we also want to make sure there is expertise 
involved with building out some of those broadband networks. We 
will encourage you to go in and look at that or those working 
on that program just to make sure those dollars are as 
efficiently used as possible for rural areas.
    Ms. Chao. Let me add one more thing. That goes through the 
FCC.
    Senator Ernst. Yes, thank you. I appreciate that. We will 
want to work with the FCC on that, but we are glad it was 
included in the infrastructure package.
    Secretary James, of course I am going to bring up one of my 
favorite topics, our Cedar Rapids flood mitigation project. It 
does apply to a number of other Senators as well that have 
projects affected by the benefit to cost ratio.
    I sent a letter to you and General Semonite in early 
February looking for answers to some of the questions I have 
about how the Corps determines which low BCR projects are 
funded under the significant risk to human safety exception.
    I have posed this question numerous times to both General 
Semonite and Director Mulvaney. We have not really figured out 
how those determinations are made for that safety exception. Do 
you have an update on how those determinations are made and 
when I will be receiving an official response?
    Mr. James. No, ma'am. Since your letter, I have not been 
updated on that. I did ask the question, and the answer at that 
time, which was a short answer because we were weaving through 
everything, was that there has not been one excepted since 
2012, I think it was.
    That is not a very good answer, and I am not giving you 
that for an answer. If you will allow me a few more days to get 
deeper into it myself, I will give you a call, meet with you, 
or whatever and try to figure this out.
    The way the budget is written and the other factors that go 
into making that determination of BC ratios just will not fit 
for the Corps to legally do that work right now. However, I 
want to look forward with you and work a way forward to see 
what we can do on it.
    Senator Ernst. Thank you, Mr. Secretary. If it does require 
a legislative fix, we need to figure that out so that rural 
areas, those low cost of living or low property value areas do 
have a fighting chance to be considered.
    Mr. James. Yes, ma'am. I cannot suggest that to you, but I 
can give you any information you ask for.
    Senator Ernst. Yes. As far as the safety issue as well, a 
life in Iowa is just as valuable as a life in California or New 
York.
    Thank you very much. I appreciate it.
    Senator Barrasso. Thank you, Senator.
    Senator Gillibrand.
    Senator Gillibrand. Thank you, Mr. Chairman.
    Madam Secretary, last month the NTSB issued reports on two 
rail accidents that occurred last year in Queens, New York, and 
Hoboken, New Jersey. In these reports, the NTSB found that 
engineer fatigue caused by undiagnosed severe obstructive sleep 
apnea resulted in the crashes in both instances.
    This is not a new issue. The engineer of the train that 
derailed in the Bronx in 2013 also suffered from undiagnosed 
sleep apnea. This is a problem in other modes of transportation 
as well, including trucking.
    Addressing this problem is on the NTSB's most wanted list 
for transportation safety improvements. All of this is why I 
was very troubled when the Department of Transportation 
announced it was withdrawing a proposed rule on screening rail 
engineers and truck drivers for obstructive sleep apnea.
    Given you have withdrawn the proposed rulemaking, what does 
DOT intend to do to address this very real and urgent safety 
concern?
    Ms. Chao. Senator, since you brought it up, I will take 
another look.
    Senator Gillibrand. OK. Thank you very much. I am very 
grateful.
    The second issue is about the Federal Transit 
Administration, which is an agency of your department. It has 
issued a rating of medium to low for the Gateway Program's 
Hudson Tunnel Project, which is the second lowest possible 
rating. This rating means that the project is not eligible to 
move forward to the next phase in obtaining a Federal New 
Starts grant.
    How did the FTA take into account the funding the States of 
New York and New Jersey have committed to providing for the 
local share of the project, which is 50 percent, over $6 
billion?
    Ms. Chao. First of all, this rating was done by the career 
folks, so it occurred in the FTA multi-layers before it even 
comes up to the political appointees.
    No. 2, we are not anxious for a fight on this. But for New 
York and New Jersey to consider funds debt that we have given 
them as part of their equity back to us is something that we 
disagree with. In our calculation, New York and New Jersey are 
putting in 5 percent not 50 percent.
    We will continue to talk about this. But using TIFIA loans 
and RRIF loans as part of equity is not how we define equity.
    Senator Gillibrand. Right. But the Administration has 
spoken about a desire to have more local skin in the game when 
it comes to funding infrastructure projects, so that the 
Federal Government is not bearing the full cost. Do you think 
that Federal loans which require repayment by the State or the 
local entity count as having skin in the game for the purpose 
of providing local cost share?
    Ms. Chao. It is like a mortgage. If you have to put in 20 
percent mortgage, and you get another loan and you put down 
your down payment as for the 20 percent, that is not really 
equity. That is just another second mortgage that further 
encompasses the house.
    Senator Gillibrand. Right, but if you are only putting in 
loans and not putting in any funding through grants, it means 
that we are paying for the whole project.
    Ms. Chao. No, because our loans are 50 percent, so you are 
counting back the 50 percent we are giving to you in loans as 
equity.
    Senator Gillibrand. Right, but we are paying for it. The 
same way you actually own the house, you own the house.
    Ms. Chao. Over time, but there has to be some equity in 
there. I do not want to argue with you because this is a huge 
issue. It is huge to you, it is important to me, so let us 
continue to work on it. I think it is a further definition of 
what equity is and what the local participation is.
    Senator Gillibrand. OK. How would you like to work forward 
to move this project forward?
    Ms. Chao. I am open to your suggestions as well but perhaps 
we should get our groups together. I will have our staff work 
with your staff.
    Senator Gillibrand. Let us do that. Thank you.
    Ms. Chao. Thank you.
    Senator Barrasso. Thank you, Senator Gillibrand.
    Senator Capito.
    Senator Capito. Thank you, Mr. Chairman.
    I want to thank both of you for being here today.
    Madam Secretary, I am very excited about the 
Administration's attention to rural development, particularly 
in infrastructure. I am pleased about the 25 percent proposed 
funds that would address the unique needs of rural America. I 
echo Senator Ernst's feelings on the broadband issue.
    Let me ask a question. We have received a lot of questions 
on how you are going to match this, what States are going to 
do, and what private entities are going to do. Obviously, in a 
State like West Virginia, private investment would be very 
difficult to attract.
    Because the Administration says raising new non-Federal 
revenue will be given a 50 percent weight, I live in a State 
that is very challenged, cash strapped, and rural; however, 
last year our voters voted via referendum to approve a sale of 
$1.6 billion in road bonds. You might ask how we did that. We 
did it with a lot of push from the Governor and the Secretary 
of Transportation. We also did it because there was a feeling 
from the ground up that we needed to do something about our 
deteriorating infrastructure on the State level.
    At one of our institutions in West Virginia is a radio guy 
named Hoppy Kercheval, and he came up with a great advertising 
theme. I am recommending this to you. It was FTDR. He just 
played it every day on statewide radio. It stands for fix the 
damn roads, and it worked.
    I want to make sure, even though this was passed last fall, 
that when we move forward with this infrastructure, we are 
going to be able to retroactively grab that money as part of 
our match. I know it is in the infrastructure proposal, but 
when it talks about years 0 to 1, you only get X percent. It is 
unclear how much weight we are going to be able to have for the 
$1.6 billion we have, as a cash strapped State, already put 
into something we feel very passionate about.
    I would just bring this to your attention. I do not know if 
you have a comment on this, and where you think this goes. The 
States that have already made this move do not want to be left 
out and only be looking forward instead being able to look 
retroactively to a year or two previous.
    Ms. Chao. I want to compliment West Virginia for its 
creativity and innovation. It can be done as has just been 
shown. Two, I also understand that not every rural region or 
State can have that kind of access or can do that.
    That is why the rural component of the infrastructure 
proposal is not competitively bid but would be somewhat on a 
formula basis. Of course that is subject to the will of 
Congress. What you are talking about is a look back.
    Senator Capito. Right.
    Ms. Chao. The look back currently is 3 years.
    Senator Capito. Right.
    Ms. Chao. But I hear you, and I will go back to the White 
House and talk to them about it.
    Senator Capito. Just a little more specificity in the rural 
area. I know I have been in numerous meetings with you and 
others where those of us who represent rural areas really 
emphasize the difficulty of attracting that private capital.
    Thank you.
    Secretary James, I wanted to talk to you about our 
waterways and the fiscal year 2019 budget request from the 
Corps. The Lower Mon locks, which are important obviously to 
moving cargo down through the Ohio River, were built in 1907. 
They are very antiquated and need repair. Our barge operators 
have already supported a tax increase, but they are not seeing 
the dollars coming to the areas most frequently utilized.
    I would like to ask you why does the Administration not 
propose spending any money on the Lower Mon Kentucky or 
Chickamauga projects in fiscal year 2019?
    Mr. James. The reasoning, as I understand it in my short 
time being on the job, is they do not meet the benefit-cost 
ratio that is required for those kinds of work.
    Senator Capito. Are you saying it is down on a priority 
list, or are you saying we are just going to close them, and 
let them deteriorate to where they can no longer be used? What 
is the long term plan here?
    Mr. James. I do not have that yet, ma'am.
    Senator Capito. Maybe we could work together on it.
    Mr. James. I would be happy to work with you further on it. 
I apologize, but I just do not have a grasp on that. I do know 
that is why no work has been done on them, and they have not 
been budgeted, because of their BC ratio.
    That is about it that I know right now, but I would be 
happy to go forward working with you.
    Senator Capito. Thank you very much.
    Senator Barrasso. Thank you, Senator Capito.
    Senator Van Hollen.
    Senator Van Hollen. Thank you, Mr. Chairman.
    Secretary James, first of all, let me thank you for your 
testimony.
    I just want to associate myself with Senator Cardin's 
comments and questions with respect to both the success of 
Poplar Island in the Bay and the Mid Bay project. They are 
really important to navigation for the channel for the Port of 
Baltimore.
    I look forward to working with you and your team. We have 
been and will look forward to continuing to work with you and 
your team on that.
    Secretary Chao, thank you for your testimony.
    When it comes to modernizing our infrastructure, this is an 
issue that brings people together. I remember the night 
President Trump won. The one substantive issue he talked about 
was modernizing our infrastructure. A lot of us would have 
liked to see us move earlier, but we are glad to try to move 
forward now.
    I guess my question does go to the simple budget math. One, 
I have serious questions about the leverage ratios in what used 
to essentially be a Federal program. Our highway program is 80-
20. You have flipped that on its head for the purposes of this 
new proposal to 20-80.
    I support many of these private-public partnerships. You 
and I have worked together on the Purple Line in Maryland. We 
believe that will be a successful private-public partnership, 
but if you look at the funding sources, almost half comes from 
the Federal Government.
    That was really required to leverage both the State and 
local component as well as the private component as part of 
that project. I think there are very serious questions about 
the leveraging math that is being used.
    I have a question about the overall budget math, following 
up on Senator Merkley's question because it really does seem 
like an effort to give with one hand. Of course we cannot give 
in terms of this transportation plan because we do not know the 
funding source for the Federal share, and taking away with the 
other.
    What is your estimate of the current 10 year shortfall in 
the Transportation Trust Fund?
    Ms. Chao. As I mentioned, the mandatory part of the 
department increases 4 percent, so pretty much the budget is 
the same. It is also the same compared to fiscal year 2017. It 
ramped up for 2018. That is what people are comparing to but in 
2017, that was always the level.
    Senator Van Hollen. I serve on the Budget Committee. We 
just had OMB Director Mulvaney recently.
    Ms. Chao. The $200 billion actually is put in for the 
infrastructure.
    Senator Van Hollen. I know that is a separate fund. You are 
putting in $200 billion, but we do not know what the source of 
funding exactly will be, but you are cutting, as Senator 
Merkley pointed out, in other parts of the budget, well over 
$200 billion in infrastructure.
    For example, you were just talking to Senator Capito about 
rural areas. You cut $5.1 billion in the 10-year budget out of 
rural water and wastewater grants. When you add it all up, 
including the shortfall.
    Ms. Chao. That is not in my budget.
    Senator Van Hollen. I know, but it is the case, is it not, 
that one of the uses of the $50 billion that can go to rural 
areas is for rural and water infrastructure? Isn't that part of 
the plan?
    Ms. Chao. My infrastructure portion is only transportation.
    Senator Van Hollen. I am talking about this whole plan. 
Senator Capito raised the importance of the $50 billion plan. 
One of the eligible uses for that is water and sewer. The 
President's budget cuts $5.1 billion from that pot of money. 
That is just one example.
    The other big one is the shortfall in the current 
transportation program that allows for Federal 80 and State 20. 
My question is, do you have any plan as the Secretary of 
Transportation to fill that estimated $160 billion shortfall 
over the next 10 years?
    Ms. Chao. That whole issue about the Highway Trust Fund has 
to be addressed because it is solvent until 2020 because of the 
FAST Act.
    Senator Van Hollen. I just want to know if--as of today--
you have a plan.
    Ms. Chao. I want to work with Congress on that.
    Senator Van Hollen. OK.
    My last question, Mr. Chairman, goes to following up on 
Senator Carper's question.
    The President has now said on a number of occasions that he 
does support an increase in the gas tax to fund this $200 
billion plan. My question is very simple. Does the President 
mean what he says about increasing that?
    Ms. Chao. You should ask the White House.
    Senator Van Hollen. Have you been in meetings with him?
    Ms. Chao. Yes, I have.
    Senator Van Hollen. Has the President told you he supports 
an increase in the gas tax?
    Ms. Chao. I think you need to ask the White House.
    Senator Van Hollen. I am asking you.
    Ms. Chao. I do not divulge conversations with the 
President. I think every Cabinet member will say that.
    Senator Van Hollen. OK. We are talking about a $200 billion 
plan which many of us think is already too small to start. The 
leverage assumptions, many of us think, are way off, but even 
that $200 billion is right now a hallucination until we have a 
real funding source. I am just curious if the President meant 
what he said.
    Ms. Chao. I agree with you we need to find pay-fors. That 
is very important. There is no agreement on that, so we need to 
work on that.
    Senator Van Hollen. I am just wondering if the President 
has found a pay-for, which is what he has said, in the gas tax. 
But we will follow up, if he has not told you, the Secretary of 
Transportation.
    Ms. Chao. You will have to ask the White House.
    Senator Barrasso. Thank you, Senator Van Hollen.
    On Nebraska Statehood Day, the Senator from Nebraska, 
Senator Fischer.
    Senator Fischer. Thank you, Mr. Chairman. It is Nebraska's 
birthday, and I am pleased to be here. I thank the panel for 
coming.
    Secretary Chao, I was pleased to see that the 
Administration included provisions to delegate review and 
permitting authorities to the State. This builds on the work 
Congress did with SAFETEA-LU and also with MAP-21 to delegate 
that NEPA authority to the States.
    My Build USA Infrastructure Act includes similar 
provisions. Under my proposal, the States would be given the 
purview over the design, permitting, and construction 
authorities currently under the Federal Highway Administration.
    In your view, what do you see as the benefits of delegating 
these authorities to the States? I see them as being able to 
stretch current tax dollars so we can move forward with 
infrastructure projects.
    What is your view, Madam Secretary?
    Ms. Chao. First of all, State and local authorities know 
best what the needs are within the community. We want to be a 
partner to the States. Two, as you mentioned, they know best 
also how to leverage, work, and partner with other sources of 
capital and revenues.
    Senator Fischer. Right. Many of us tend to focus on where 
new revenue is to come from. One of my deepest concerns is how 
we can better spend the revenue, the taxpayer money, we are 
already charged with spending in a responsible manner. Thank 
you.
    As you know, Nebraska is currently in the process of 
assuming NEPA authority for transportation projects. Can you 
provide me with an update on that process?
    Ms. Chao. It has been a great pleasure to work with 
Nebraska. You need to go back to the Department of 
Transportation and let them know we have really enjoyed working 
with them. We hope to sign the MOU very shortly.
    Senator Fischer. Oh, good. That is wonderful to hear.
    We tend to benefit from consistent formula funding for 
infrastructure projects in the State. It seems unlikely that 
Nebraska will benefit from some of the President's proposals 
when it comes to incentive programs or transformative projects.
    Would it be correct to say the President's infrastructure 
proposal intends to supplement current infrastructure funding 
mechanisms such as the Federal Highway Administration's formula 
funding programs instead of replacing those programs?
    Ms. Chao. You are absolutely right. The dollars we are 
talking about are on top of what is in the budget ordinarily 
and on a formula basis.
    Senator Fischer. As I was looking through the proposal, 80 
percent of the funding under the Rural Infrastructure Program 
would be allocated to the Governors to provide States with 
flexibility. You mentioned that earlier. It is based on a rural 
formula.
    My question here is the rural formula is based on rural 
lane miles and rural population. But how does the 
Administration plan to define rural for the purposes of this 
funding? I know across the Federal Government there are many, 
many definitions for rural. What are you specifically looking 
at?
    Ms. Chao. You were also talking about leveraging the 
funding. We are very concerned about rural America. On the 
specific question, I have to confess, someone told me, and I 
cannot remember now for the life of me. Let me get back to you 
with an answer on that.
    The whole issue as to how we define it, I think, but rather 
than speculate, I was told this, and I just cannot remember. I 
will get back to you on that.
    Senator Fischer. That would be great. For example, a lot of 
times, rural gravel roads are included in a formula, paved 
roads; the current definition used by the Federal Highway 
Administration, I would be interested to know if you are 
looking at the USDA, some of their definitions of rural as 
well.
    If you could get back to me, that would be great.
    Ms. Chao. I will certainly do so.
    Senator Fischer. Thank you.
    Also on the rural infrastructure program, the proposal 
included language to develop rural interstate projects. An 
important interstate expressway project we have in Nebraska is 
in our panhandle. That is the Heartland Expressway. It is part 
of the larger Ports-to-Plains Corridor that runs north to south 
across this country.
    When it is completed, the Heartland Expressway will provide 
greater access for our agricultural products to the country and 
help to have this multi-lane, divided highway access. Can you 
elaborate on how rural interstate projects would qualify for 
rural funding under the President's proposal? Is there anything 
specific on rural interstates, especially when they connect 
through States from Canada to Mexico, like the Ports-to-Plains 
Project?
    Ms. Chao. The department has sent guidelines and 
principles. We did not send legislative language. That is an 
indication that we want to work with the Congress on how to 
define some of these things.
    Senator Fischer. We will look forward to working with you 
on that.
    Thank you so much, Madam Secretary.
    Secretary Barrasso. Thank you, Senator Fischer.
    Senator Whitehouse.
    Senator Whitehouse. Thank you, Chairman.
    Welcome to both of the witnesses.
    Let me start by saying we have heard a great deal in the 
course of this hearing about rural infrastructure. I would like 
to focus a little bit on coastal infrastructure. America has 
coasts. Some of us represent States that have coasts.
    Along those coasts, we are seeing very serious predictions 
of very considerable sea level rise, including predictions that 
continue to come from the Federal Government under this 
Administration. Working with NOAA, Rhode Island is looking at 
as much as 9 feet of vertical sea level rise by the end of the 
century.
    If that were to happen, Amtrak is gone through Connecticut. 
The map of my State would have to be redrawn. A considerable 
amount of our wastewater infrastructure, which tends to be low 
because of where it stands in the gravity flow, has to be 
relocated. Coastal highways, coastal evacuation zones, and 
flood maps mean an enormous amount of work has to be done to 
prepare for what we now have been very strongly told by the 
Federal Government is coming at us.
    I am a bit concerned that words like coastal, sea level 
rise, or storm surge--things we have to live with and prepare 
for--do not appear in the infrastructure plan. I am hoping that 
as we develop this plan, you will be accommodating of that fact 
and of our coastal States' needs that infrastructure be 
designed, redesigned, and maybe even relocated for the 
foreseeable prospect of that kind of damage.
    Ms. Chao. Senator, you and I have talked about this issue. 
I know that it is highly important to you.
    Senator Whitehouse. I may not be the only one. There are a 
bunch of us that are coastal.
    Ms. Chao. You have brought this up many times with me. I 
had not thought about that, so let me take a look at the 
outline.
    Senator Whitehouse. Thank you. I just want there to be a 
little reflex in your mind that whenever you hear rural, you 
also think, rural and coastal, rural--oh, and coastal.
    With the Corps, unfortunately, we are not much better off, 
Mr. James. The Corps' proposed fiscal year 2019 budget asks for 
about $1.5 billion, $1.481 billion to be exact, for its Flood 
and Coastal Storm Damage Reduction Program.
    Out of that, $1.48 billion, we can identify $40 million 
that is marked for coastal projects. The remaining $1.44 
billion is marked for inland projects. When you look at what is 
coming at our coasts, when you look at what NOAA is telling us 
to expect, when you look at what the Department of Defense is 
telling us to expect, when you look at the preparations the 
Navy has to make for its Navy bases, it is really hard for me 
to understand why there has to be a 37 to 1 ratio in favor of 
inland projects over coastal projects. How do you defend that 
to coastal States?
    Mr. James. Sir, I remember discussing this with you during 
my confirmation hearing.
    Senator Whitehouse. I can be like a bad penny; I keep 
turning up on this stuff. I think every one of my colleagues 
would be equally exercised if an essential feature of their 
State was overlooked completely by a factor of 37 to 1.
    Mr. James. My answer to you on that suggestion is that it 
is not 37 to 1, it may be 37 to 1 of the entire dollars, but 
all of the projects are processed and considered the same, 
whether they be coastal or inland. That tells me there is just 
a lot more inland projects that require flood damage assistance 
than coastal.
    Senator Whitehouse. I do not want to be in a position in 
which the budget does not authorize funding for coastal 
projects, that it is $40 million out of $1.4 billion, with the 
result that people do not apply because they look at that 
budget and say, it says in huge letters the coastal communities 
are not welcome here.
    Maybe they are not participating because they take a look 
at this and say, oh, my gosh, this is all for inland and upland 
stuff. That is an invitation for us to stay away. I do not want 
to be in a situation where we are not getting projects because 
of the budget, and you are saying that is because there are not 
enough projects in there.
    There is a circularity to that argument that leaves coastal 
communities in real trouble. I do not think coastal projects 
should be second class citizens in your budget by this kind of 
a factor of 37 to 1.
    I know Mississippi is important. I know it floods. I know 
there are upland floods in other places. But for crying out 
loud, when you are looking at a 9 feet sea level rise coming 
along our coasts, there is a lot of infrastructure work that 
needs to be done to prepare for that.
    I hope you will find a way to send a signal to our 
organization and to coastal communities that coastal projects 
are, in fact, welcome here and are, in fact, a key, a critical 
part of the Army Corps' task.
    Mr. James. I have no problem with that. That was not my 
personal thinking to begin. I was just trying to explain to you 
if we had 100 flood risk damage reduction projects in this 
country and 50 were coastal and 50 were inland, from what I 
understand right now, it would be equal application to those 
two areas.
    Senator Whitehouse. We will see. That is not what the 
signal is from the budget.
    I just want to close by saying I do not ascribe this to 
you. I do not think you personally have any distaste for 
coastal projects. We have talked our way through this before. I 
have full confidence in your personal judgment, but the Army 
Corps is a big bureaucracy, and 37 to 1 is a very big signal in 
a budget. I will leave it at that.
    Thank you.
    Mr. James. Senator Whitehouse, as important as it is to 
you, I will get with the Chief and his team, get with my team, 
and let me get back with you. If I have said anything that is 
not right or if I was right, let me make sure.
    Senator Whitehouse. I appreciate that. You have been great 
to work with. Thanks.
    Mr. James. Let me make sure.
    Senator Barrasso. Senator Sullivan.
    Senator Sullivan. Thank you, Mr. Chairman.
    I appreciate, Madam Secretary and Secretary James, your 
being here. I think the Administration's principles on 
infrastructure actually were a really good start. We appreciate 
the opportunity to work with you.
    I want to reinforce what Senator Carper said earlier. I was 
a bit surprised by the leadership in the Senate, on my side, on 
the Republican side, saying they did not look like they were 
going to have time. We should make more time. If we do not have 
time, let us work weekends.
    Every American believes this is important. I think it is a 
great opportunity for bipartisan support. I am not sure what my 
leadership was talking about, but I think this is a huge 
priority. I know it is for you, Madam Secretary, and the 
President. Let us get to work. We should create time. This is a 
good opportunity. You are seeing it here in this hearing.
    Secretary Chao, I want to thank you for the Alaska visit 
and the summit we had on infrastructure. The Sterling Highway 
is now starting to move forward. It only took 25 years of 
permitting delays. Other than that, it is starting to look 
good.
    In your previous comments this morning on the importance of 
permitting, you touched on it a bit. Can you talk a bit about 
this whole idea of the funding actually for infrastructure in 
some ways can be a function and will be a function of how 
aggressively we address permitting reform, meaning if you have 
significant permitting reform?
    You know I have a bill, the Rebuild America Now Act. Mr. 
Chairman, I would like to submit for the record an op-ed I had 
with the head of the Laborers International, Terry O'Sullivan, 
on the importance of permitting reform.
    Senator Barrasso. Without objection.
    [The referenced information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Sullivan. Madam Secretary, can you touch on that, 
how permitting reform is actually, in some ways, a driver of 
how much money we are going to be able to get with regard to 
particularly private sector money into broader infrastructure 
in America?
    Ms. Chao. As was mentioned, with every year's delay in 
permitting, there is an increase of a minimum of 3 percent. 
Project costs increase every year the longer they are stretched 
out.
    Second, the permitting aspect, we are not talking about not 
protecting the environment; we all care about the environment. 
We are talking about common sense ways to reduce duplicative, 
redundant, sequential permitting which can actually be done 
concurrently, or we can have sister agencies share information.
    As of now, within the Department of Transportation, one 
office in Transportation does their own study; they do not 
share with another office at the Department of Transportation, 
thereby lengthening the whole process. The other thing also 
with permitting is the private sector, which is very eager to 
finance a lot of these public infrastructures, would be 
deterred if indeed permitting were to add years of delay and 
increase their risk.
    Senator Sullivan. On highways, the average time it takes to 
permit a bridge in New Jersey, New York, or Rhode Island is 
like 6 or 7 years. If we could bring that down to 1 year or a 
year and a half, you will have less uncertainty and more 
private sector dollars.
    By the way, as you know, Madam Secretary, the UK, Canada, 
and Australia all permit infrastructure projects in a year, 
year and a half, or 2 years. This is not something radical. The 
radical position is how delayed we are. Isn't that the case?
    Ms. Chao. Yes. In fact, when you talk about Sterling 
Highway, when I went to visit Alaska, it was actually 35 years 
in the making, to get that to a remote Alaskan village that 
really needed help.
    Senator Sullivan. You are not going to get private sector 
money.
    Thank you. We want to continue to work with you on that.
    Secretary James, I wanted to talk briefly about wetlands. 
My State has over 60 percent of the Nation's wetlands--60 
percent in Alaska for the whole country. We have wetlands 
totaling approximately 270,000 square miles. That is larger 
than the State of Texas.
    When we have Section 404 permitting requirements with the 
Corps and EPA, and the mitigation requirements that come with 
that, it is almost always a disproportionate cost and delay 
with regard to infrastructure in Alaska.
    We will have some questions for the record. I wanted to ask 
you very quickly, a number of us have been looking at the Clean 
Water Act, relevant regulations from the Executive agencies 
from both Democrat and Republican administrations previously 
that give Federal agencies sufficient flexibility and latitude 
to take Alaska's unique circumstances into consideration of 
wetland permitting processes because the vast majority of the 
wetlands in the country reside in my State.
    It just takes an inordinate amount of time to get through 
the Section 404(c) permitting. Can I get your commitment, Mr. 
Secretary, to work with us on these kinds of flexibilities that 
we believe already exist in the regs and the laws, to work with 
you and your office on this kind of flexibility on Section 
404(c)?
    Mr. James. Yes, sir. I would be happy to.
    Senator Sullivan. I want to thank you again, and General 
Semonite, on the work you have done with regard to the Port of 
Nome. You may have heard just recently there was a cost share 
agreement between Nome and the Corps for the study of the port 
there. I think we have made good progress on that. I appreciate 
that.
    Mr. James. Thank you.
    Senator Barrasso. Thank you, Senator Sullivan.
    I would like to point out the vote is going to start in 
about a minute. We still have four people to ask questions. We 
have 5 minute rounds. I am going to have to ask you to please 
hold it within the 5 minutes for each of those.
    Senator Markey is next.
    Senator Markey. Thank you, Mr. Chairman.
    I welcome you here, and clearly we want to have a huge 
infrastructure program that opens up in our country. We need it 
desperately.
    The way I look at the formula in the Trump proposal is that 
it takes $200 billion in existing Federal infrastructure money 
and repackages the same money as a new program. Then, in step 
two, it flips the formula from 80 percent coming from the 
Federal Government and 20 percent from local and State 
government to 20 percent coming from the Federal Government and 
80 percent that would come from the State and local 
governments.
    Maybe it is like the miracle of the loaves and fishes; it 
did work 2,000 years ago. But I just do not think it is going 
to work here where the local governments cannot come up with 80 
percent of the money and the reason we need national 
infrastructure bills is that they need the help and they need 
the Federal Government to come in.
    I will be honest with you. My fear is I just think that 
Wall Street will say, we will come in and help, but they will 
have to be paid. That is going to be tolls they are going to 
want to impose on drivers, on communities as a way of getting 
paid. That is how Wall Street operates.
    As a result, it changes the relationship between the 
infrastructure in our country and ordinary citizens. I just 
think they will wind up being tipped upside down and having 
money shaken out of their pockets ultimately to pay for 
infrastructure that historically, under the 80 Federal and 20 
local funding, was subsidized by the government in order to 
make sure the roads are there for everyone.
    I have a big problem with the math. I just do not think it 
is going to work. I agree when Wharton and the Heritage 
Foundation agree upon something, and they are agreeing with Ed 
Markey, that there is new recombinant political DNA that is out 
there that requires a better explanation of how these projects 
will get built.
    I do know that Wall Street would love to have the National 
Environmental Policy Act to just be gutted and be dramatically 
watered down. That is what this infrastructure proposal does. 
It takes the constitution of the environment for the last 50 
years, the National Environmental Policy Act and makes 
fundamental changes.
    One, it would cut the amount of time the public has to sue 
over bad projects from 6 years down to 150 days. That would be 
great if you want to be a Wall Street firm and get a quick 
return on your investment.
    However, if you are a community, and all of a sudden you 
hear there is a brand new road coming through a whole section 
of town, and you are told you have 150 days to mount a battle 
against a Wall Street law firm that is just going to truncate 
your rights, that is going to be, I think, something that is 
very disastrous for local communities all across the country.
    Second, the bill also expands the ability of agencies to 
simply decide that certain types of projects have no 
environmental harm at all; the agency decides it. It is a 
single agency, by the way. One agency would make the decision.
    Secretary Zinke would be able to decide that pipelines can 
go through parks, and the other agencies would not be able to 
get into the middle of that. Similarly, the EPA would be 
truncated in their ability to be able to make decisions that 
were appealable because the Secretary of Transportation would 
make all of these decisions, and the agencies would not be 
involved.
    I just have a problem with the formula. I would like to 
give you a chance to respond to it because that is the core of 
it. The money is not sufficient, and the environmental reviews 
are truncated.
    Ms. Chao. I do not have that.
    Senator Markey. Whatever you can do.
    Ms. Chao. I think it is important to emphasize that we want 
to do this on a bipartisan basis. As we go forward, these are 
issues you are concerned about. Let us talk about them.
    Senator Markey. I still have 12 seconds to say that if it 
is not changed, if there isn't a fundamental change made, then 
citizens are going to wind up with their environmental 
protections being watered down. They are going to be tipped 
upside down and have money shaken out of their pockets to pay 
for the fees in our country.
    Ms. Chao. As I mentioned, we have no intention of diluting 
any environmental protections. If you look at the bureaucratic 
way in which permitting occurs, a lot of it does not make 
sense. They are redundant, duplicative, replicate one another, 
and discourage communications among sister agencies. There are 
many, many ways in which the permitting process can be 
streamlined and improved without compromising on environmental 
protection.
    Second, on the roads and bridges, the 80-20 rule only 
applies to interstate; 84 percent of the roads and bridges that 
are in each State are funded by the State. The Federal 
Government's share is only 16 percent. Overall, infrastructure 
is traditionally actually funded by the States. It is only for 
the interstate that the Federal portion comes in.
    Senator Markey. Which is the essence of this.
    Ms. Chao. The infrastructure is everything actually. The 
infrastructure proposal is whatever a local community wants. 
They decide and make a targeted appeal to this competitive 
process. The more creative and innovative they can be in 
financing, meaning if they can get more private sector and 
other party involvement, they actually will be in a better 
position to win the Federal grants.
    Senator Barrasso. Thank you, Senator Markey. I appreciate 
your questions.
    Senator Boozman.
    Senator Boozman. Thank you, Mr. Chairman.
    Thank you for being here. We appreciate your hard work. We 
also appreciate the fact that you are honoring your commitment 
to make yourselves available periodically. It is very, very 
helpful.
    Secretary Chao, I would like to ask you a question. It is 
not under your purview in the sense that this is a water 
question. However, since you are such a major player in the 
infrastructure package, I really think we are in a situation 
now where you cannot think in terms of just one thing.
    We can put in our roads, runways, and railways, but if you 
do not have the water infrastructure to back that up, it simply 
does not work. We are in a situation now where things are 
aging, and there is a tremendous need.
    Senator Booker and I have introduced the Securing Required 
Funding for Water Infrastructure Now, the SRF WIN Act. We have 
had tremendous success with outside organizations and multiple 
sponsors in Congress.
    We are trying to make it such that we allow the State 
Revolving Funds--the SRFs--to bundle multiple drinking water 
and wastewater projects together and submit them to the EPA for 
approval through the Water Infrastructure Financing and 
Innovation Act, the WIFIA Act, the WIFIA Program.
    Because every State is AAA bond rated, and all of our 
projects have ratepayers, the SRF WIN Act really answers some 
of the concerns of Senator Markey in the sense that we can have 
tremendous leveraging ability. These are not grants. These are 
actually getting paid back.
    As a result of that, I really would encourage you, as you 
are putting together these things, to look at this. Hopefully, 
the Administration can support, and hopefully you can support 
it in an effort, as I said, to take the dollars we can and 
leverage as much as we can in a common sense way.
    Ms. Chao. I will bring this back to the White House and 
also the EPA Administrator.
    Senator Boozman. Good. Thank you very much.
    Secretary James, it is good to have you here also.
    Arkansas is a rural State that relies heavily on 
agriculture, as you know very well. In fact, we are the No. 1 
rice producing State in the country, third in cotton, and the 
list goes on and on. Ag is No. 1 in our State, as it is in so 
many other States throughout the country that we forget about, 
and adds about $16 billion to our economy. Many hardworking 
Arkansans rely heavily on the inland waterways and ports to 
ship their crops across the Nation and export them all over the 
world.
    Tell us the consequences for rural and agriculturally 
dependent States if we do not invest in our Nation's inland 
waterways and ports. Do you feel that the Administration's 
principles for infrastructure properly address America's inland 
waterways?
    Mr. James. I do feel that the infrastructure bill does 
address the waterway system. His submission of that bill to us 
allows us to be able to move forward. It does cover our inland 
waterway infrastructure.
    You and I know this. For the other members and for the 
record, if the inland waterway of the McClellan-Kerr Arkansas 
River shuts down, everything from mid-Oklahoma down to the 
Mississippi River would be shut off. It is a huge amount of 
prosperity, a huge amount of interstate commerce that comes 
from that.
    The same goes for every other running navigable stream in 
our country. A lot of them are provided by locks and dams as 
most of our inland waterway infrastructure is in locks and 
dams. The Mississippi below Cairo, Illinois, is not; it is a 
free flowing stream which requires a lot of maintenance due to 
the major flooding that the lower Mississippi Valley receives.
    Without the navigation, there is no way. Grain would be 
spoiled on the ground, and our balance in trade would quickly 
go out the back door. Because, as I understand it, for years 
and years and years now the balance of trade has been supported 
by the agriculture community.
    Senator Boozman. Thank you very much.
    Thank both of you again for your hard work. We appreciate 
it.
    Senator Barrasso. Thank you, Senator Boozman.
    Senator Booker.
    Senator Booker. Thank you very much.
    Out of respect for my colleague, I want to try to go really 
quickly.
    First, just a hearty thank you to both of you for your 
testimony, your commitment to your jobs, and the mission of our 
country.
    Secretary Chao, I am grateful to have you here again. Thank 
you for your willingness to engage with my team and the other 
four Senators dealing with this Gateway project. You have been 
incredible. We had a meeting at the White House with the 
President just on this issue. You came to Senator Schumer's 
office for what I thought was a very constructive dialogue.
    You indicated to Senator Gillibrand that to deal with some 
of these issues, we probably need to get our teams together 
again. Would you be willing to commit to meeting again with 
Senator Schumer and us as we did a few months back?
    Ms. Chao. Of course.
    Senator Booker. Great.
    Ms. Chao. I would also add that Gateway is not one project. 
There are nine projects involving $30 million.
    Senator Booker. Multiple projects. You and I are both 
familiar and do not need to state for the record, but time is 
running.
    The second thing is, you committed also that you will come 
up and visit us and see the project. We have had Republicans 
and Democrats do it. It is stunning to go through the tunnels 
and see the crisis. That commitment stands, right?
    Ms. Chao. I have been trying to do that.
    Senator Booker. I know. You and I have been trying to work 
our schedules.
    Third, the multiple projects that are involved, I heard the 
back and forth between you and the Senator on loans, how they 
are counted and the like. Is that the standard now for all 
projects in America that the Federal commitment does not count 
as a State commitment, the loans? Is that new?
    Ms. Chao. I am not so sure this is new. It has always been 
that way, No. 1. Second, we would disagree; there was never any 
Federal commitment. It was a verbal commitment, a verbal 
sentence given at a rally, a political rally no less. There was 
no commitment from the Federal Government.
    Senator Booker. No, no, I understand. But the downgrading 
is because of?
    Ms. Chao. It has always been this way. Loans are not 
counted as equity.
    Senator Booker. That contradicts your Web site. Can I read 
what your Web site says?
    Ms. Chao. OK.
    Senator Booker. From the FHWA Web site, it says ``TIFIA, 
the proceeds of a secured TIFIA loan, will be used for any non-
Federal share of project costs required under Title 23 or 
Chapter 53, Title 49.'' That is what your Web site says. It 
contradicts what you are saying here.
    Ms. Chao. Then I need to look at it. Thank you for bringing 
it to my attention. I will take a look at it.
    Senator Booker. OK. Take a look at that. We should have a 
fair standard because I know these programs. This would crush 
every area of our country if you shifted that to what you 
represented to the Senator. Your Web site says this, and my 
familiarity with that.
    Ms. Chao. Thank you for bringing it up. That is not my 
understanding, but let me take a look at it.
    Senator Booker. I really appreciate that.
    The last thing is to champion the great work you guys are 
doing. The Department of Transportation's efforts on the 
Gateway Tunnels' environmental impact statement has been 
amazing and inconsistent with what everyone has been saying, 
let us cut the regulatory time.
    My understanding is the Gateway Project Development 
Corporation has finalized their environmental impact statement 
and is on track for a final EIS pending DOT approval at the end 
of March. This is an incredible achievement. They are literally 
cutting in half the typical amount. This is actually you all 
cutting bureaucracy and cutting time. I just want to make sure 
of commitment by the Department of Transportation and 
everything is on schedule to achieve something we all can brag 
about as testimony to the Trump administration's cutting red 
tape. Can we make sure we get that done by March 31 as was 
committed?
    Ms. Chao. I would love to promise you that. I don't know 
whether I can. I will take a look at that.
    Senator Booker. OK. Because we have made incredible time.
    Out of respect to my colleague, I will end early.
    Ms. Chao. Thank you.
    Senator Barrasso. Senator Duckworth.
    Senator Duckworth. I thank Senator Booker for being so 
generous with his time.
    Thank you, Mr. Chairman and Ranking Member Carper.
    Secretary Chao and Secretary James, it is so nice to see 
both of you again.
    Secretary Chao, I see a lot of philosophical similarities 
between the President's infrastructure proposal and the goals 
of DOT's Infrastructure to Rebuild America Grant Program 
established last year, the INFRA Grant Program.
    I understand both seek to align Federal investments with 
national and regional economic goals. There is some emphasis on 
leveraging Federal funds with non-Federal funding, including 
public-private partnerships and also to promote innovative 
solutions to improve project delivery. Is it fair for me to say 
that?
    Ms. Chao. Yes.
    Senator Duckworth. As you know, the 75th Street Corridor 
Improvement Project in Chicago, which is part of the CREATE 
Project, meets all of INFRA's program goals. The project 
provides robust national and regional benefits, would increase 
national freight and passenger railway activity, and is 
reflected by the support of nine different Midwestern States, 
each of the Class I railroads, and numerous corporate 
interests.
    In fact, a study by the University Illinois highlights that 
three-quarters of the CREATE Program's impacts would actually 
occur outside of the Midwest. More than 65 percent of the 
project costs are already committed through a public-private 
partnership.
    Given the robust support and alignment of the goals of all 
levels of government, the environmental review and record of 
decisions are also complete, so the project can move forward as 
soon as you give it the green light. I am asking that you give 
this critical project your full consideration as you finalize 
the INFRA grant awards moving forward.
    Ms. Chao. I will certainly do so.
    Senator Duckworth. Thank you. Do you have a sense of when 
the INFRA awards might be announced?
    Ms. Chao. We have to get the TIGER grants out which will 
hopefully be in the next 2 to 3 weeks. After that, then we will 
turn to the INFRA so hopefully by the summertime if not sooner.
    Senator Duckworth. OK. Back to the infrastructure proposal, 
the Administration is calling the plan a major investment in 
our Nation's infrastructure. Yet, as my colleagues have noted, 
the President's fiscal year 2019 budget cuts more 
infrastructure than would be invested.
    How is this a major infrastructure investment when you 
propose spending less than we already do?
    Ms. Chao. I think this is a policy difference. We can talk 
more about that. What is important is that this infrastructure 
proposal needs to be done on a bipartisan basis. If we can 
separate out from the budget, go forward, and take a look at 
the infrastructure, we very much look forward to working with 
both the majority and the minority in the Senate and the House.
    Senator Duckworth. We are going to need more than $200 
billion to be able to move forward.
    Ms. Chao. Absolutely we are. That is where we need to have 
the private sector involved, and we need to leverage the funds.
    Senator Duckworth. Also, I would like to state that I join 
my colleagues who mentioned their concerns for our livestock 
haulers with the EOD deadline coming up. I have heard from 
people in Illinois who haul cattle, hogs, and even equine. This 
is a real issue in our ag States. I would appreciate your 
attention to that.
    Mr. James, as I know you are aware, our inland waterways 
have long enjoyed a Federal-private partnership through a 
diesel fuel tax paid by barge operators that covers 50 percent 
of the cost associated with maintaining and modernizing our 
locks and dams.
    I was troubled to hear that the Administration's budget 
seeks to alter that longstanding relationship by promoting a 
per vessel fee to fund our aging locks and dams. Again, as you 
know, that is a non-starter for commercial operators who would 
bear the cost.
    Would it be easier and more practical to consider 
alternatives that allow the Corps to keep some of the revenues 
that you already generate but are required to deposit into the 
U.S. Treasury like recreational fees and hydropower revenue?
    For example, with the hydropower revenue, you generate 
around $1.5 billion that goes into the Treasury. If we could 
keep a small percentage of that within the Corps of Engineers, 
you could actually apply some of that to some of the associated 
cost with the maintenance.
    Mr. James. Senator, that is an interesting proposal that I 
have heard many times throughout my career, even before I 
became the ASA. It is a very interesting proposal. I would be 
willing to look at some numbers with you or the Committee at 
any time that would be of interest to you. It is very 
interesting to me. Thank you for that question.
    Senator Duckworth. Thank you very much for your interest.
    That is all the questions I have.
    Senator Barrasso. Thank you very much.
    I appreciate the members being here.
    I have a request for a submission for the record. We, at 
the Committee, received numerous requests for submissions for 
the record from different organizations impacted by the 
infrastructure policy.
    In order to ensure the full breadth of the policy options 
are included in the record, I ask unanimous consent that they 
be added to the record.
    Without objection.
    [The referenced information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Carper. No objection.
    Senator Barrasso. Senator Carper.
    Senator Carper. I want to make two unanimous consent 
requests.
    I just want to say to both of you thanks for being here and 
thanks for your willingness to take on tough jobs. Albert 
Einstein used to say, ``In adversity lies opportunity.'' There 
is a lot of adversity here but actually a lot of opportunity.
    I think with your leadership--the leadership of our 
Chairman and other Democrats and Republicans--we can make 
progress. We really need to on these fronts. I look forward to 
doing that.
    In the spirit of that thought, Mr. Chairman, I have two 
unanimous consent requests to submit for the record. One, I ask 
unanimous consent to submit for the record the White House 
infrastructure proposal summary document that states that 
overall, for highways, ``28 percent of funding is Federal.''
    I would also note that the same document indicates that if 
we look at just capital expenditures, Federal funds currently 
support more than half of all spending on highways--not just in 
Delaware, but in the United States across the country.
    I have a second unanimous consent request, if I could, Mr. 
Chairman. I would ask unanimous consent to submit for the 
record the January 2018 GAO report entitled Highways and 
Transit Projects. In that report, GAO notes that it previously 
reported that 99 percent of highway projects are not being held 
up by complex NEPA reviews. Meanwhile, Federal Highway 
Administration officials expressed ``Categorical exclusions 
still constitute the vast majority of NEPA reviews for highway 
projects.''
    Thank you, Mr. Chairman.
    Senator Barrasso. Without objection, so ordered.
    [The referenced information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. The time has now expired on the vote, and 
we need to get to the floor. I do want to thank the members who 
have attended.
    I especially want to thank our esteemed guests, Madam 
Secretary, as well as Assistant Secretary James. I want to 
thank you for your time, and I want to thank you for this 
crucial discussion regarding the Administration's 
infrastructure plans.
    People may submit additional questions for the record. The 
record will remain open for 2 weeks.
    Thank you again for being here and joining us.
    With that, this hearing is adjourned.
    [Whereupon, at 12:10 p.m., the Committee was adjourned.]
    [Additional material submitted for the record follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
